GR-80-98-017
U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
Office of Community Oriented Policing Services
Sandy City Police Department
Sandy, Utah
GR-80-98-018
June 4, 1998

 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the

grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented

Policing Services (COPS), to the Sandy City Police Department, Sandy, Utah. The Sandy

City Police Department received grants of $1,500,000 to hire or rehire 20 sworn police

officers under the Universal Hiring Program (UHP), and $15,228 to redeploy 0.6 officers

under the Making Officer Redeployment Effective (MORE) program. The purpose of the

additional officers is to enhance community policing efforts.




Because the Sandy Police Department did not document officer redeployment, we are

questioning reimbursement of $15,227 under the MORE grant. In addition, for the UHP grant,

we are questioning $19,078 in reimbursements received for unallowable costs and $11,983 in

duplicate reimbursements. Further, we are recommending that the UHP Supplemental grant be

reduced by $236,010 because they did not fill all the grant funded positions awarded.


We found the following weaknesses with regard to meeting grant conditions: 
- Under the UHP grant, the Sandy City Police Department requested reimbursement for

    $19,078 for unallowable expenses. In addition, the Police Department requested and was

    paid $11,983 in salaries and fringe benefits twice for the same period.
- The Sandy City Police Department did not document the redeployment of officers

    awarded under the MORE grant. 
- The Sandy City Police Department did not submit the required Departmental Initial

    Report and Officer Progress Reports timely. 
- The Sandy City Police Department overstated total program costs on the UHP Financial

    Status Reports by $38,938, and understated total program costs on the MORE Financial

    Status Reports by $2,998.
- The Sandy City Police Department did not hire four of the officers awarded under the

    UHP Supplemental grant. As a result, we recommend that the UHP Supplemental award be

    reduced by $236,010. 
#####